BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Brief of The Bruderhof, The
International Society for Krishna Consciousness, and
the Islam & Religious Freedom Action Team of the
Religious Freedom Institute as Amici Curiae in
Support of Petitioners, in 20-1501 Roman Catholic
Diocese of Albany, et al., v. Linda Lacewell,
Superintendent, New York Department of Financial
Services, et al., was sent via Three Day Service to the
U.S. Supreme Court, and 3 copies were sent via Three
Day Service and e-mail to the following parties listed
below, this 27th day of May, 2021:
Noel John Francisco
Counsel of Record
Jones Day
51 Louisiana Avenue, NW
Washington, DC 20001
(202) 879-3939
njfrancisco@jonesday.com
Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

I www.beckergallagher.com

Miles E. Coleman
Counsel of Record
Nelson Mullins Riley & Scarborough, LLP
2 W. Washington St., 4th Floor
Greenville, SC 29601
(864) 373-2352
miles.coleman@nelsonmullins.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 27, 2021.

Amy Tripktt Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~rJ+, ct O'J../
dzft... YJ .

Notary Public

~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires

:-ebr11ary "14, ~(,)3

